No. 20-915
UNICOLORS, INC.,
Petitioner,

v.
H&M HENNES & MAURITZ, L.P., ET AL.,
Respondents.
CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rule 29.5(a), I certify
a copy of the Reply Brief for Petitioner Unicolors, Inc.
was hand-delivered by courier to the U.S. Supreme
Court on May 3, 2021. Additionally, a copy of the Reply Brief for Petitioner was sent to counsel for the Respondents by overnight FedEx, as well as by
transmitting a digital copy via electronic mail.
Staci Jennifer Riordan
Nixon Peabody LLP
300 South Grand Avenue, Suite 4100
Los Angeles, CA 90071
Tel.: 213-629-6000
Email: sriordan@nixonpeabody.com
/s/ E. Joshua Rosenkranz
Counsel of Record

